<html>
<title> - ANIMAL RIGHTS: ACTIVISM VS. CRIMINALITY</title>
<body><pre>[Senate Hearing 108-764]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-764

                ANIMAL RIGHTS: ACTIVISM VS. CRIMINALITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2004

                               __________

                          Serial No. J-108-76

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
98-179                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement...........................................    62
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    67

                               WITNESSES

Blum, Jonathan, Senior Vice President of Public Affairs, Yum! 
  Brands, Louisville, Kentucky...................................    11
Green, William, Senior Vice President and General Counsel, Chiron 
  Corporation, Emeryville, California............................     9
Lewis, John E., Deputy Assistant Director, Counterterrorism 
  Division, Federal Bureau of Investigation, Department of 
  Justice, Washington, D.C.......................................     2
Scott, McGregor W., U.S. Attorney, Eastern District of 
  California, Sacramento, California.............................     5
Zola, Stuart M., Director, Yerkes National Primate Research 
  Laboratory, Emory University, Atlanta, Georgia, on behalf of 
  the National Association for Biomedical Research...............    13

                         QUESTIONS AND ANSWERS

Responses of John Lewis to questions submitted by Senator Leahy..    23
Responses of McGregor Scott to questions submitted by Senator 
  Leahy..........................................................    26

                       SUBMISSIONS FOR THE RECORD

Blum, Jonathan, Senior Vice President of Public Affairs, Yum! 
  Brands, Louisville, Kentucky, prepared statement...............    30
Green, William, Senior Vice President and General Counsel, Chiron 
  Corporation, Emeryville, California, prepared statement........    39
Human Society of the United States, Wayne Pacell, Chief Executive 
  Officer, Washington, D.C., letter and attachment...............    64
Lewis, John E., Deputy Assistant Director, Counterterrorism 
  Division, Federal Bureau of Investigation, Department of 
  Justice, Washington, D.C., prepared statement..................    70
People for the Ethical Treatment of Animals, Lisa Lange, Vice 
  President of Communications, Norfolk, Virginia, statement and 
  attachments....................................................    77
Scott, McGregor W., U.S. Attorney, Eastern District of 
  California, Sacramento, California, prepared statement.........   130
Southern Poverty Law Center, Montgomery, Alabama, article and 
  attachment.....................................................   137
Zola, Stuart M., Director, Yerkes National Primate Research 
  Laboratory, Emory University, Atlanta, Georgia, on behalf of 
  the National Association for Biomedical Research...............   147

 
                ANIMAL RIGHTS: ACTIVISM VS. CRIMINALITY

                              ----------                              


                         TUESDAY, MAY 18, 2004

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senator Hatch.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Good morning. I want to thank everybody for 
joining us today to examine the issue of when legitimate animal 
rights activism crosses over into illegal criminal acts. We 
have some very distinguished panelists with us today and we 
look forward to hearing from them.
    As everyone in this room is very well aware, the right to 
demonstrate, to protest and to make your voice heard is as 
deeply embedded in the American political fabric as is any 
other right that we collectively hold dear. We cannot and we 
will not violate that right. However, where political activism 
breaches peaceful protest and dives head-first into criminal 
conduct, we can, should and will use every mechanism available 
to prosecute the individuals responsible.
    One area where it is abundantly clear that fringe activists 
have resorted to criminal conduct is where academic and 
commercial enterprises are conducting legitimate animal 
testing. In recent years, some radical activist groups have 
gone well beyond what any reasonably-minded person would 
consider legitimate protest.
    Their tactics include vandalizing and pipe-bombing research 
facilities, credit card fraud, threatening employees of 
businesses and research companies, terrorizing children of 
employees, and posting death threats against employees, as well 
as employees' names, addresses and phone numbers, on the 
Internet.
    These extremists target researchers, farmers, circuses and 
other lawful, productive and beneficial organizations. There 
have been numerous bombings and vandalisms against farmers in 
my home State of Utah. A mink breeders' co-op in Murray, Utah, 
has been attacked and fire-bombed. The farmers' names, 
addresses and phone numbers have been posted on the Internet, 
together with complete instructions on how to build bombs and 
how to cover up any trace of the crime.
    For instance, the instructions on how to make milk jug fire 
bombs came with this caution, quote, ``Arson is a big-time 
felony, so wear gloves and old clothes you can throw away 
throughout the entire process, and be very careful not to leave 
a single shred of evidence,'' unquote. Now, that is shocking, 
to say the least.
    Additionally, as most of you know, I have long been devoted 
to health-related issues. These actors target what could be 
life-saving research. When research laboratories and university 
researchers are targeted and attacked, the ones who lose most 
are those who are living with a disease or who are watching a 
loved one struggling with a devastating illness.
    Those who target and attack peaceful organizations and 
individuals do not legitimately advance their cause and promise 
no breakthroughs to society. Instead, they only promote a grave 
threat to the well-being and advancement of mankind.
    What is particularly disturbing about these egregious 
tactics is that they are not isolated instances carried out by 
a few persons acting alone. Instead, they are part of a broad, 
carefully-orchestrated and coordinated effort to threaten, 
terrorize and ultimately shut down lawful enterprises by 
systematically targeting their employees and other persons or 
entities who do business with those lawful enterprises.
    Our task here today is to help identify and show the line 
that distinguishes lawful expression and protest from criminal 
behavior. Again, I appreciate everyone taking time to be with 
us today. We will hear from two panels of witnesses. On our 
first will be Mr. McGregor, the U.S. Attorney for the Eastern 
District of California, and Deputy Assistant Director for 
Domestic Terrorism from the FBI, Mr. John Lewis.
    We welcome both of you here. We are grateful that you would 
take time to come and we look forward to hearing from both of 
you.
    On our second panel is William Green, general counsel of 
the Chiron Corporation; Mr. Jonathan Blum, from Yum! 
Industries, the parent company of Kentucky Fried Chicken; and 
Dr. Stuart Zola from Emory University. So we look forward to 
hearing from the three of you as well.
    We will submit all of the full statements for the record 
and if you could limit your opening remarks to 5 minutes, we 
will then have enough time for questions.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    So let's first begin with you, Mr. Scott. Is that the way 
we are going to go?
    Mr. Scott. Thank you, Mr. Chairman. If it is okay with you, 
Mr. Lewis will lead off.
    Chairman Hatch. Okay. We will go with Mr. Lewis first and 
then go to Mr. Scott.

    STATEMENT OF JOHN E. LEWIS, DEPUTY ASSISTANT DIRECTOR, 
  COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
            DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Lewis. Good morning, Chairman Hatch and members of the 
Committee. I am pleased to appear before you and discuss the 
threat posed by animal rights extremists and ecoterrorists in 
this country and related difficulties in addressing this crime 
problem.
    During the past several years, special-interest extremism 
as characterized by the Animal Liberation Front, or ALF, the 
Earth Liberation Front, or ELF, and related extremists has 
emerged as a serious domestic threat. The FBI estimates that 
the ALF and ELF and related groups have committed more than 
1,100 criminal acts in the United States since 1976, and over 
half of them in the last 8 years resulting in approximately 
$110 million in damages.
    The ALF, established in Great Britain in the mid-1970's, is 
a loosely organized extremist movement committed to ending the 
abuse and exploitation of animals. The American branch of ALF 
began its operations in the late 1970's. Individuals become 
members of ALF by engaging in direct action against companies 
or individuals who, in their view, utilize animals for research 
or economic gain, or do some manner of business with those 
companies or individuals.
    Direct action generally occurs in the form of criminal 
activity designed to cause economic loss or to destroy the 
victim's company, operations or property. These efforts have 
broadened to include a multinational campaign of harassment, 
intimidation and coercion against animal testing companies and 
any companies or individuals doing business with those targeted 
companies.
    The targeting of secondary companies typically takes the 
form of harassment of employees and interference with normal 
business operations under the threat of escalating tactics or 
violence. The harassment is designed to inflict increasing 
economic damage until the company terminates its business 
relationship with the principal target.
    The best example of this trend involves Great Britain's 
Stop Huntingdon Animal Cruelty, or SHAC, organization, a more 
organized sub-group within the extremist animal rights 
movement. SHAC has waged a sustained campaign against 
Huntingdon Life Sciences and any companies with which HLS 
conducts business.
    Investigation of SHAC-related criminal activity has 
revealed a pattern of vandalism, arsons, animal releases, 
harassing telephone calls, threats and attempts to disrupt 
business activity of not only HLS, but all of the companies 
doing business with HLS. Among many others, these companies 
include Bank of America, Marsh USA, Deloitte and Touche, and 
HLS investors such as Stephens, Incorporated, all of which, and 
more, have since terminated their business relationships with 
HLS.
    In recent years, ALF and ELF have become one of the most 
active criminal extremist elements in the United States. 
Beginning in 2002, their operational philosophy has been 
overshadowed by an escalation in violent rhetoric and tactics. 
Individuals within the movement have discussed actively 
targeting food producers, biomedical researchers and law 
enforcement with physical harm. More disturbing is the use of 
improvised explosive devices against consumer product testing 
companies, accompanied by threats of larger bombings and 
potential assassinations.
    In addition to the upswing in violent rhetoric and tactics, 
new trends have emerged in the ecoterrorist movement and 
include a greater frequency of attacks in more populated areas, 
targeting of sports utility vehicles and arsons of new 
construction homes or commercial properties. It is believed 
these trends will persist as extremists within the 
environmental movement continue to fight what they perceive as 
greater encroachment of human society on the natural world.
    The FBI and our law enforcement partners have made a 
limited number of arrests of individuals alleged to have 
perpetrated acts of animal rights extremism or ecoterrorism in 
the past year. These few successes are indicative of how the 
FBI's efforts are hampered by a lack of applicable Federal 
criminal statutes.
    While it is a relatively simple matter to prosecute 
extremists responsible for arsons or the use of explosive 
devices, it is often difficult, if not impossible, to address 
an organized campaign of low-level criminal activity such as 
what is exhibited by SHAC.
    To address the overall problem presented by SHAC and 
related activity claimed by ALF, the FBI and its partners in 
the United States Attorneys' offices nationwide have attempted 
to use the animal enterprise terrorism statute, with just one 
conviction since this statute's passage in 1992. While the 
statute intended to provide a framework for the prosecution of 
individuals involved in animal rights extremism, it does not 
reach many of the criminal activities engaged in by SHAC in 
furtherance of its overall objective of shutting down 
Huntingdon Life Sciences.
    My colleague here today, United States Attorney Greg Scott 
from the Eastern District of California, will speak in greater 
detail on the shortcomings of the AET statute, along with 
proposed amendments. SHAC members are typically quite 
conversant in the elements of the AET statute, and appear to 
engage in conduct that, while criminal, would not result in 
significant, particularly Federal, prosecution.
    Today, more than 35 FBI field offices have over 190 pending 
investigations associated with ALF and/or ELF activities. 
Despite our best efforts, additional tools are needed to 
effectively impact animal rights extremism and ecoterrorism. 
Extremist movements such as ALF and ELF present unique 
challenges. They exhibit remarkable levels of security 
awareness and are typically very knowledgeable of law 
enforcement techniques, as well as the limitations imposed on 
law enforcement.
    In conclusion, the FBI's investigation of animal rights 
extremists and ecoterrorism matters is our highest domestic 
terrorism investigative priority. The FBI and our law 
enforcement partners will continue to address the difficult and 
unique challenges posed by animal rights extremists and 
ecoterrorists.
    Chairman Hatch and members of the Committee, this concludes 
my prepared remarks, and I would like to express my 
appreciation for your consideration of this important issue and 
look forward to responding to any questions you might have.
    [The prepared statement of Mr. Lewis appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you, Mr. Lewis. We appreciate 
you being here and appreciate your testimony.
    Mr. Scott, we will turn to you.

STATEMENT OF MCGREGOR W. SCOTT, U.S. ATTORNEY, EASTERN DISTRICT 
             OF CALIFORNIA, SACRAMENTO, CALIFORNIA

    Mr. Scott. Good morning, Mr. Chairman. I am pleased to have 
the opportunity to appear before you today to discuss the 
threat posed by animal enterprise terrorism and ecoterrorism, 
the efforts by the Department of Justice to meet this threat, 
and the Department's proposals for how we can better address 
this threat.
    The difficulty and hardship in investigating and 
prosecuting these types of offenses cannot be overestimated. In 
my own district, in the late 1980's, the University of 
California at Davis was constructing a new veterinary medicine 
school which was burned to the ground by ALF advocates. Just a 
few years ago, we had a BLM wild horse/burro facility in rural 
Modoc County burned to the ground using incendiary devices. We 
have not been able to successfully prosecute anyone in either 
of those instances.
    One of the principal difficulties in prosecuting these 
cases is the inadequate scope of 18 U.S.C. Section 43, which 
makes it a crime to travel in interstate or foreign commerce, 
or use the mail for the purpose of causing damage to an animal 
enterprise. The current animal enterprise terrorism statute is 
insufficient to address the threat posed by terrorist acts 
committed against research laboratories, businesses and other 
entities that use animals.
    At present, the statute applies only when there is, quote, 
``physical disruption,'' end quote, to the functioning of the 
enterprise that results in damage to or loss of property. As 
Mr. Lewis just told you, enterprises, however, have been harmed 
economically by threats, coercion and other methods of 
intimidation often directed at employees, customers or vendors 
of animal enterprise that do not fall within the existing 
criminal prohibition.
    For example, as was referenced by Mr. Lewis, ALF's Stop 
Huntingdon Animal Cruelty Campaign has targeted an animal 
testing company called Huntingdon Life Sciences. ALF's strategy 
seems to include not only attacks on Huntingdon itself, 
including damaging Huntingdon property and the homes of 
Huntingdon employees, but has also included attacks or threats 
against Huntingdon's insurance carrier, banker and even 
companies that merely trade Huntingdon stock.
    Another example of ALF targeting a secondary or collateral 
entity is the recent bombing of the Shaklee Corporation, a 
California biotech firm. Even though Shaklee is generally 
considered to be a relatively animal-friendly company, its 
associations with other companies, including Huntingdon, has 
made it a target.
    While animal terrorists are increasingly targeting not only 
animal enterprises themselves, such as research facilities and 
companies that engage in animal testing, but also anyone who is 
believed to be engaged in the provision of services to such 
animal enterprises, Federal law does not currently equip the 
Department with the necessary tools to effectively prosecute 
the perpetrators of such conduct.
    The Department therefore supports amending the animal 
enterprise terrorism statute to prohibit the use of threats, 
vandalism, property damage, trespass, persistent and harassing 
communications, intimidation or coercion in order to cause 
economic disruption to an animal enterprise when those crimes 
are part of a larger plan or conspiracy to cause economic 
disruption to an animal enterprise.
    This new offense is needed to address unambiguously 
harassing and threatening conduct directed at animal 
enterprises, as well as their employees, customers or vendors, 
conduct that currently causes substantial economic harm.
    Additionally, the current penalties for those who violate 
the animal enterprise terrorism statute are inadequate and may 
fail to deter much of the criminal conduct prohibited by 
current law. For example, in the absence of death or serious 
bodily injury, those who perpetrate animal enterprise terrorism 
are now eligible for a maximum of 3 years in prison under the 
statute. In many cases, however, such a penalty does not 
reflect the gravity of the offense, and the Department 
therefore supports increasing the existing penalties for animal 
enterprise terrorism in those cases where terrorists cause 
substantial economic damage. If an animal terrorist, for 
example, causes millions of dollars in economic damage to an 
enterprise, he or she should be eligible for more than 3 years' 
imprisonment.
    Finally, the Department supports adding the animal 
enterprise terrorism statute as a predicate for electronic 
surveillance and monitoring. Law enforcement agents currently 
possess the authority to conduct electronic surveillance by 
petitioning a Federal district court judge for a wiretap order 
in the investigation of many terrorism crimes and ordinary non-
terrorism crimes such as drug crimes, mail fraud and passport 
fraud.
    However, current law does not allow investigators to 
conduct electronic surveillance when investigating animal 
enterprise terrorism. Such surveillance would be helpful in 
preventing this type of terrorism and it should be available 
when investigators have probable cause to believe that an 
individual is committing, has committed or is about to commit a 
violation of the animal enterprise terrorism statute and all 
other reasonable means of investigation have been exhausted. 
Given the serious and often violent nature of animal enterprise 
terrorism, the Department urges Congress to correct this 
deficiency in current law.
    In conclusion, animal terrorism and ecoterrorism pose a 
serious threat to the safety and security of our fellow 
citizens. Combatting this threat is a priority for the 
Department of Justice and in order to win this battle, Federal 
prosecutors must have every available tool to effectively 
prosecute this criminal activity.
    As always, the Department stands ready to work with 
Congress to ensure that our efforts are successful. In 
particular, the Department looks forward to working with this 
Committee in the weeks and months ahead to improve the animal 
enterprise terrorism statute.
    Again, thank you for the opportunity to testify on this 
very important topic and I look forward to your questions. 
Thank you.
    [The prepared statement of Mr. Scott appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you, Mr. Scott.
    We will, without objection, put the statement of Senator 
Leahy into the record immediately following my opening 
statement.
    Now, let me just ask both of you this question. Do you have 
the tools--you have indicated here you may not have all the 
tools, but let me just ask it in this way--do you have the 
tools under current law to combat illegal activities directed 
toward research institutions and companies engaged in or 
supporting medical innovation? If not, would you care to list 
for us what additional tools you would like this Committee to 
try and provide for you?
    Mr. Lewis. Senator, we have no problem addressing 
investigations that involve criminal activity such as arson and 
explosives, use of explosives. We rely on other statutes, 
frankly, than the animal enterprise terrorism statute to 
address those types of cases.
    In this particular arena, when we are dealing with a whole 
range of activity that does have economic impact--things that 
include implied or veiled threats, office visits, office 
invasion in the form of blockades, surveillance of employees, 
posting employee information on the Internet, vandalism, that 
kind of thing--these are not covered at present by the animal 
enterprise statute and are therefore outside the scope of what 
we would be able to charge and bring to the U.S. Attorney's 
office. It is those types of things that are aimed at companies 
such as Huntingdon Life Sciences or secondary companies that 
work with them that we would like to see brought into the 
existing statute.
    Chairman Hatch. As Mr. Scott has suggested here, would the 
addition of Title III wiretap authority to the Animal 
Enterprise Protection Act--that is Title 18 U.S.C. Section 43--
would that be helpful to the FBI in investigating these 
particular matters?
    Mr. Lewis. There is no question that Title III authority 
would greatly assist us in these cases. Right now, we cannot 
apply it. It is not a predicate offense. If we could have that 
changed, the short answer to your question is it would be a 
powerful tool in helping us through these investigations.
    Chairman Hatch. Can you live without that tool and still 
get these investigations done?
    Mr. Scott. Well, I think the trigger on the wiretap 
mechanism and its availability to law enforcement is that all 
other reasonable means of investigation have been exhausted 
before we apply to a Federal district court judge for that 
authority. So by its very nature, the statute would be limited 
to those circumstances where we have used every other tool 
available to us and, by resort, we are having to go to this 
mechanism.
    Chairman Hatch. Have either of you seen coordination 
between extremist groups located within the United States and 
other extremist groups from other countries?
    Mr. Lewis. Sir, there is coordination to the extent that 
there is dialogue going back and forth, in addition to the flow 
of dollars back and forth between Great Britain and the United 
States. SHAC USA or Stop Huntingdon Animal Cruelty here in the 
United States grew out of the same organization that exists in 
Great Britain. We know that there is communication going back 
and forth. We know that there is travel of principals going 
back and forth and, as I said, the flow of dollars.
    If I may, on the last question that you asked, I will also 
tell you that we have learned through our investigations that 
there is a code of conduct within this movement that spells out 
no cooperation with law enforcement if you are caught. In fact, 
they have a name for it; they call it the no-compromise policy.
    The fact of the matter is most of the individuals that we 
confront in these investigations--when they are confronted, 
they simply don't cooperate. Getting back to your question on 
Title III authority, it would be extremely helpful, if we can't 
get cooperation from subjects, to be able to use Title III to 
tie us into other subjects.
    Chairman Hatch. Many of the acts committed by these 
extremists, it would seem to me, already violate State laws. 
Now, are these State laws adequate to combat and prosecute, if 
you will, these animal terrorists?
    Mr. Scott. Senator, I was a local prosecutor, to include 
elected district attorney, for a total of 14 years. So I am 
very sensitive to the issue of the federalization of what have 
historically been local or State crimes.
    I think what makes this particular area different is that 
these are not random, isolated acts of vandalism or graffiti or 
assaults or threats. This is all part of a coherent plan or 
strategy that oftentimes is a national strategy or conspiracy.
    What the Department would propose is that when this series 
of illegal acts that would otherwise oftentimes only constitute 
misdemeanor conduct is part of a larger plan or conspiracy that 
is directed to affect the economic opportunities of a 
legitimate business, then there is a Federal aspect to that.
    The other part of it that is significant is that as a local 
prosecutor in California and now as a United States Attorney, 
the investigative tool of the Federal grand jury is tremendous 
in relation to what is available to local prosecutors, at least 
in California. And the ability to call witnesses and question 
witnesses and suspects and material witnesses in front of the 
Federal grand jury and to subpoena documents--all those kinds 
of things are a tremendous tool that is not available to local 
prosecutors.
    The final point I would make is that if a local district 
attorney in a county in far northern California sees a series 
of what he or she would consider to be petty acts of vandalism, 
and a prosecutor in southern Oregon sees the same thing without 
knowing that the other is going, there isn't that connection to 
establish the wider plan. So they may not take the cases as 
seriously as they should be, whereas with the Federal ability 
to look at it globally, we have the ability to really make a 
determination of how significant the conduct is.
    Chairman Hatch. Let me ask you, what effect does the 
targeting of secondary companies not meeting the statutory 
definition of, quote, ``animal enterprise,'' unquote, under 18 
U.S.C. 43, have on the FBI's ability to investigate and obtain 
prosecution of animal rights extremists who commit criminal 
acts against those companies?
    Mr. Lewis. Sir, I believe I heard almost all of your 
question. There is a sustained campaign being waged here in 
this country by SHAC on what we call secondary or tertiary 
companies. In fact, as many as 100 companies since 2000 have 
stopped doing business with Huntingdon Life Sciences because of 
these attacks.
    If we cannot bring prosecution against individuals who are 
involved in a variety of lower-level criminal activity against 
these secondary companies, then we lose an opportunity to 
arrest subjects, hopefully interrogate subjects, bring subjects 
to the U.S. Attorney's office for further prosecution and 
hopefully elicit some sort of cooperation. That has long been 
one tool in our bag for all other types of investigations, the 
power of prosecution and what it does in terms of bringing 
cooperation on the part of some people.
    Chairman Hatch. Well, I appreciate your testimony here 
today. This is an important hearing because it is important for 
us to let the American people know that these groups are out 
there and that they are getting away with some very terrible 
acts and that we have got to do more to give the law strength 
to be able to apprehend them and go after them.
    I think both of you testifying here today is very 
important, so we appreciate you coming. Thanks so much.
    We will turn to our second panel: William Green, senior 
vice president and general counsel of Chiron Corporation; 
Jonathan Blum, senior vice president of government affairs at 
Yum! Brands; and Dr. Stuart Zola, the director of the Yerkes 
Primate Center at Emory University.
    Let's start with you, Mr. Green, first. Mr. Green, we will 
go to you, and them Mr. Blum and then Mr. Zola.

 STATEMENT OF WILLIAM GREEN, SENIOR VICE PRESIDENT AND GENERAL 
      COUNSEL, CHIRON CORPORATION, EMERYVILLE, CALIFORNIA

    Mr. Green. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to be here today on 
behalf of Chiron Corporation. I must also say, however, that it 
is not really a pleasure testifying before this Committee in a 
circumstance where both personally and institutionally we are 
in the cross-hairs of a violent and persistent campaign of 
intimidation and harassment against our employees and 
ourselves, for reasons that are only vaguely related to our 
current business.
    The interesting dynamic that is occurring in animal 
terrorism, exemplified by the SHAC attacks on tertiary targets, 
is that it is falling below the radar screen of existing 
regulation, and existing tools of law enforcement. The local, 
State and Federal level are essentially inadequate to deal with 
the perverse effects of this coercion.
    There are two issues that I would like to have you focus on 
as I testify today. The first is that this activity is 
increasingly targetting businesses that are not themselves 
animal enterprises, but are normal players in the chain of 
commerce that have very little incentive to resist the effect 
of intimidation on their employees. Therefore, their first act 
and their obvious act is to withdraw from relationships with 
the real target of the harassment.
    Second, this is truly a national and international activity 
carefully coordinated and orchestrated through the use of the 
Internet. The combination of these two factors put this 
activity beyond the scope of effective regulation by existing 
tools.
    Let me take a minute to talk about Chiron and the threat 
that we faced. As you know, Mr. Chairman, Chiron is 
biotechnology company. We are in the business of developing new 
treatments and preventions for disease. We are active in 
fighting cancer. We prevent influenza. We have products on the 
market for cystic fibrosis and multiple sclerosis.
    We will continue to use animals because science requires 
testing of all these therapeutic and preventive products before 
they can be used commercially. Before you can engage in human 
testing, you must test these rationally in appropriate animal 
models. The law requires this, the science requires this.
    Our own animal testing program is carefully accredited and 
regulated, and we try to operate it in the best state-of-the-
art means. But because of a historical connection that we have 
had with Huntingdon Life Sciences, we are a tertiary target for 
the harassment campaign that is now underway.
    That campaign has been underway against us for about 13 
months in the United States and about 2 1/2 years in the United 
Kingdom and the Netherlands. Our employees have been the target 
of violent and persistent campaigns by animal extremists. I 
would like to provide just a couple of highlights of that and 
see if I can call together the way these campaign are 
coordinated with four points.
    My written testimony contains a number of examples of 
campaigns and tactics used against Chiron, but I would like to 
have you focus on four. The first is home visits. Masked people 
arrive at the homes of low-level employees in the middle of the 
night with bull horns and screech alarms. In one case, in our 
company, they smeared animal feces on the doorsteps of 
employees. In another case, they left butyric acid on the front 
door. Butyric acid creates the strong aroma similar to that 
emitted by vomit.
    In my personal case, there have been four home visits, none 
of them really more than petty, prank-like vandalism. But when 
combined with the other activities of SHAC against us, they 
present a fairly pervasive and intimidating result for me and 
for my family.
    The most pronounced of these other activities, of course, 
is bombing. Two bombs went off on our campus on August 28, 
2003, at about two o'clock in the morning. These bombs were set 
to go off some minutes apart. The goal of setting off two bombs 
some minutes apart is fairly obviously. They were targetting 
the first responders who came to investigate the first bomb 
blast.
    About 30 days after the bombing of our site, a third bomb 
went off at the Shaklee Company, also in the Bay area of 
California. At about the same time as the Shaklee blast, the 
SHAC website in the United States published the following 
statement from what is called the Revolutionary Cells, and I 
quote, ``Hey, Sean Lance''--our chairman--``and the rest of the 
Chiron team, how are you sleeping? You never know when your 
house, your car even, might go boom. Who knows? That new car in 
the parking lot may be packed with explosives, or maybe it will 
be a shot in the dark.'' If this isn't intimidation by 
threatening death by use of the Internet, I don't know what is.
    Three weeks after this e-mail posting on the Internet 
threatening death to our chairman, Sean Lance, SHAC invaded the 
college campus where my freshman daughter is a student and 
leafletted the campus with pictures of her, urging other 
students to harass and intimidate here and the student 
organizations of which she is a member. She was 3,000 miles 
from her mother and 3,000 miles from me, and I must say this 
wasn't pleasant.
    If you consider all of these activities in totality, what 
we have is an international conspiracy to use new tools that 
are not effectively regulated by law enforcement. The ideal 
solution in my mind would be a comprehensive amendment of the 
Hobbs Act. If that is not possible, at a minimum, this year we 
need to have the Animal Terrorism Act amended to make it 
effective against the kind of low-level terrorism and global 
Internet coordination that is now intimidating companies 
throughout the United States, and for that matter Western 
Europe.
    Thank you, Mr. Chairman. That is the end of my prepared 
remarks. I am happy to respond to questions.
    [The prepared statement of Mr. Green appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you. We appreciate it and, like 
I say, we will put all the prepared remarks in the record as 
though fully given.
    Mr. Blum.

  STATEMENT OF JONATHAN BLUM, SENIOR VICE PRESIDENT OF PUBLIC 
           AFFAIRS, YUM! BRANDS, LOUISVILLE, KENTUCKY

    Mr. Blum. Thank you, Mr. Chairman. I would like to thank 
you for having us here today to bring attention to this 
important matter. I am here to talk with you about a corporate 
campaign that has been waged against KFC, one of our companies, 
for the last 3 years.
    What I would like to do is outline how PETA, who has 
brought this corporate campaign against us, has crossed the 
line of free speech and First Amendment protection to what we 
consider to be invasion of privacy and harassment of our 
executives and their families, our neighbors and others in our 
community. In my view, PETA's campaign has been nothing short 
of what I would call corporate terrorism.
    As background, PETA has attempted to pressure our company 
into forcing our suppliers to make changes to their processing 
methods. We don't own any processing companies. Let's be clear. 
What PETA ultimately wants is a vegetarian or vegan world, no 
consumption of meat, poultry, pork, fish, no leather goods, no 
dairy products--not very likely in our society.
    But since we don't own any farms or any processing 
facilities, PETA has drawn their attention on KFC and tried to 
disrupt our supply chain and pressure us to force our suppliers 
to make the changes that PETA seeks. We view those changes as 
impractical, unnecessary, unproven and very costly. In fact, 
Mr. Chairman, if we were to implement those changes, the cost 
to our company would exceed $50 million. Our suppliers have 
told us they will not categorically implement the changes that 
PETA seeks.
    We have studied this matter thoroughly and we are very 
comfortable with the animal welfare guidelines that our 
suppliers are following. So when we resisted making the changes 
that PETA seeks, they escalated their campaign and moved from 
rhetoric and dialogue to harassment and threats. They have 
enlisted the help of a number of celebrities who are 
vegetarians. They have spread misinformation, come to our 
restaurants and picketed, boycotted, and come to our business 
meetings, and so forth.
    Mr. Chairman, we are perfectly fine with PETA exercising 
their First Amendment rights and acting within their legal 
rights, as I have just described. But they have stepped over 
the line and moved beyond protected free speech and have 
resorted to intimidation of our executives.
    Let me just be clear. This is not a warm and fuzzy animal 
protection group; this is not the ASPCA. PETA's Bruce 
Friedrich, the number two in the organization, has admitted 
under oath, in a court of law, that he told his supporters at a 
rally that all fast-food restaurants should be bombed or 
exploded and he would say alleluia to anyone who perpetrated 
these crimes. I have submitted for the record a transcript of 
Mr. Friedrich's remarks.
    Let me give you a few examples of what PETA has done to us 
and why several of us, myself included, have 24-a-day, 7-day-a-
week police protection at our homes during frequent periods 
throughout the year.
    Last year, a leader of PETA in Germany threw actor's blood 
and feathers on our Chairman and CEO as a means to embarrass 
him at a public event, and this was publicized through the news 
media around the world. The perpetrator of that was prosecuted 
in Germany.
    PETA has published on their website home addresses of a 
number of our executives, and they have encouraged their 
700,000 members to regularly and frequently send us letters to 
our homes which we receive from all around the world, people 
telling us to stop killing chickens.
    PETA has hired a photographer to take clandestine and 
secret photographs of us with long-distance lenses for the sole 
purpose of putting our faces on billboards across America and 
in advertisements saying that we are chicken killers. PETA has 
gone door to door in our neighbors harassing our neighbors and 
our families, telling them that we are chicken killers and 
inhumane, trying to make us uncomfortable in our communities. 
They have also threatened to bring a jumbo television screen to 
the president of KFC's home to showcase a videotape of chickens 
being slaughtered to all the children in the neighborhood.
    On Halloween, they came to our neighborhood dressed as 
chickens and handed out trick-or-treats to kids. But instead of 
candy, Mr. Chairman, they handed out videotapes of chickens 
being slaughtered to the children so they could bring those 
home and play them for their parents.
    PETA sent me an e-mail similar to the one that they sent to 
Chiron, or an organization sent to Chiron, apparently, and told 
me I shouldn't sleep easy at night. PETA has been making 
harassing phone calls to our board of directors and sending 
them harassing letters. They found our CEO's mother in the 
Midwest and sent her a letter and called her; the same thing 
with the president of KFC's parents and the CEO's sister.
    They have gone to the church where a number of our 
employees attend and have disrupted services and marched in 
front with banners and slogans, and so forth. They have also 
enlisted a celebrity to come and say to me that they are going 
to bring 5,000 people to my front door and harass us through 
intimidation. They were arrested for trespassing on our 
property.
    I could go on and on, Mr. Chairman, but for the sake of 
time let me just say that any one of these individual actions 
probably is not enough to raise concern. But when you string 
them all together over a 3-year period, and dozens and dozens 
more, I hope you would agree that this campaign of harassment 
and intimidation gives rise to modifying the criminal code. We 
hope that you can do something about this by making it a 
criminal act for any animal rights activist to personally 
harass or intimidate an executive or cause a business 
disruption in the way PETA has done to us.
    In conclusion, Mr. Chairman, I would also urge Congress to 
consider eliminating PETA's tax-free status, as they benefit 
from tax laws designed to help not-for-profit organizations, 
and we don't think that is appropriate.
    Thank you very much.
    [The prepared statement of Mr. Blum appears as a submission 
for the record.]
    Chairman Hatch. Thank you, Mr. Blum.
    Mr. Zola.

STATEMENT OF STUART M. ZOLA, DIRECTOR, YERKES NATIONAL PRIMATE 
  RESEARCH LABORATORY, EMORY UNIVERSITY, ATLANTA, GEORGIA, ON 
   BEHALF OF THE NATIONAL ASSOCIATION FOR BIOMEDICAL RESEARCH

    Mr. Zola. Thank you, Mr. Chairman, and thank you for 
allowing me to testify today and for conducting this hearing on 
the threat posed by animal rights extremists.
    I am the director of the Yerkes National Primate Research 
Center, one of eight NIH-sponsored research facilities in this 
country. We are located in Emory University, in Atlanta, 
Georgia, where I am also a professor of psychiatry and 
behavioral sciences and a research career scientist with the 
Veterans Administration.
    I am here today testifying on behalf of the National 
Association for Biomedical Research, the NABR. With 300 
institutional members, the NABR is the only national non-profit 
organization dedicated solely to advocating sound public policy 
that recognizes the vital role of humane animal use in 
biomedical research, in higher education and in product safety 
testing.
    In addition to my role as director at Yerkes, I am also a 
neuroscientist and my work involves studying the brain and 
memory and how memory works, what parts of the brain are 
important for memory, what happens when things go wrong, and 
hopefully how we may be able to fix things when they do go 
wrong.
    Much of what we have learned thus far about how the human 
brain works in terms of memory has really come from research 
with animals. Because we have been able to develop animal 
models for a number of different kinds of human diseases, we 
can study these diseases in the laboratory in a very systematic 
way, in ways that we cannot do with humans.
    For example, in terms of my own field, we have developed 
animal models now that have abnormal deposits of protein. This 
is an abnormal protein that occurs in Alzheimer's disease and 
is indeed the hallmark of Alzheimer's disease. Because we have 
these animal models available to us now, there is a lot of 
promise in being able to understand and treat Alzheimer's 
disease in ways that we haven't had available to us before.
    Indeed, there are a number of individuals at Yerkes and at 
Emory University and at other institutions around the country 
who are working on the possibility of an Alzheimer's vaccine; 
that is, we now have the possibility of being able to reverse 
the deposits of these plaques, this protein, and in some cases 
we hope to be able to prevent that from even occurring. So 
animal research for my field of memory and for many other 
fields of medicine really has brought us to new dimensions and 
new areas of possibility.
    Now, I want you to erase what I have just said. Don't think 
about the fact that we have treatments. Think about having no 
treatments and having no cures and having little hope, and that 
is the outcome if animal extremists have their way.
    Because of the research I do, because I use monkeys to 
study aspects of memory, I have been a target of animal rights 
activists for many years. When I was at the University of 
California, before I came to Emory, I was the university's 
spokesperson for the use of animals in research and explaining 
to the general public why it was important to do that.
    Animal extremists labeled me as Vivisector of the Year for 
many years running, and every year they would burn a life-like 
model of me dressed in a lab coat at demonstrations. This was 
more than a veiled threat to me. Mail came to my home with 
pictures of me and my family, with bull's eye targets 
superimposed on them, so that I would know that they knew about 
my personal life and where I lived. Harassing phone calls were 
just the normal order of the day.
    When I moved to Emory University a couple of years ago, the 
neighborhood where I had just bought a home was flooded with 
propaganda from animal rights activists warning my neighbors 
that a torturer was coming to live in their neighborhood. For 
the first year of our residency there, we received dozens and 
dozens of unauthorized magazine subscriptions and book club 
memberships and gifts and other kinds of things that were sent 
to us as harassment in my name by the animal rights activists. 
Not only that, but they did this to my colleagues in my name, 
as well, and sent them gift subscriptions from me.
    For the concern of safety for me, Emory University 
installed and continues to pay for and support an alarm system 
in my home. The university, in collaboration with the 
university police and our local community police, keeps a close 
watch on my home and neighborhood at all times.
    Others of my colleagues have faced harassment as well, 
including having pictures of their children appear on animal 
extremist Web pages, with the suggestion that these children 
ought to be treated no differently than animals in research. 
The threats are focused in other ways as well, what is referred 
to as third-party threats, and we have heard a lot of this 
already this morning.
    In terms of our own experience, a contractor who was doing 
work for Yerkes was recently the target of what is referred to 
as a denial of service. That is an action by the animal 
extremists who use sophisticated computer-driven telephone 
dialing programs to flood the lines of this business and 
effectively block access to the company's legitimate customers.
    If this continues, the animal extremists will have won and 
the loser will be humanity. We can't allow this to happen. 
Animal extremists claim that it is unethical to do animal 
research, but everything that we know and everything that we 
still have to learn in terms of biomedical research makes it 
just the opposite. It is unethical to not do animal research.
    Your grandchildren and my grandchildren have the promise of 
growing up with much less disease in this world now, and our 
own children even today have the promise of being able to face 
old age gracefully and with a lot more dignity as these new 
developments come about. Animal research plays a large part in 
those promises and being able to fulfill those promises.
    I want to thank you, Mr. Chairman, for allowing me to 
testify and for making these points about the importance of 
holding at bey where animal activists have come to and not 
allowing them to progress. I am happy to answer any questions 
that you have.
    [The prepared statement of Mr. Zola appears as a submission 
for the record.]
    Chairman Hatch. Well, thank you, Mr. Zola.
    Mr. Green, your statement briefly touches on similar 
activities done in the UK, or the United Kingdom. Can you 
provide some further insight to the Committee with regard to 
the UK's governmental response to these types of activities?
    Mr. Green. We have had employees harassed in the UK and in 
the Netherlands for two-and-a-half years. The UK government has 
been much more effective than local or Federal Government 
agencies in the United States in putting together a program 
that permits private companies to obtain judicial protection 
for their employees.
    Part of that is an outgrowth of the British government's 
concern about the erosion of structural and infrastructural 
support for Huntingdon that caused the government to be more 
supportive of protective mechanisms. The same sorts of 
harassing activities that have occurred in the United States 
have occurred in Europe, both at our employees' homes and at 
our office sites.
    Chairman Hatch. Some of the episodes you discuss appear to 
be violations of State laws, and if that is so, why are they 
not adequate in taking care of the problems and why do you need 
Federal laws to resolve this?
    Mr. Green. A combination of two factors, Senator. The first 
is that most of these activities fall below the radar screen of 
effective enforcement of local law. Local law enforcement, 
using tools such as disturbance of the peace or vandalism and 
the like, are not going to be interested in pursuing broader 
solutions.
    For example, the four home visits that occurred in my 
hometown were the only four events that happened in 13 months 
in the city in which I live. While the city police and the city 
government is more than interested in protecting its citizens, 
four small, prank-like matters in isolation is not going to 
present a case that is going to be prosecutable by local 
authorities.
    However, when you aggregate this activity, and particularly 
you aggregate it with the orchestration and coordination 
globally of an Internet-driven and Internet-empowered 
communication mechanism, you have a tool that is beyond the 
scope of local or State law enforcement.
    Chairman Hatch. So you are in agreement with the prior 
panel that we need to provide law enforcement with greater 
tools in order to apprehend and prosecute these animal 
extremists who threaten, intimidate and harass your employees 
as well as other employees throughout the country?
    Mr. Green. I am, Senator Hatch, yes.
    Chairman Hatch. Now, you believe new legislation is needed 
to address the issues raised by your testimony. Do you believe 
that Congress can go further in this area of law without 
imposing restrictions on the First Amendment?
    Mr. Green. Senator, I don't believe that any of the 
activities that I have outlined today reflect protected speech. 
I am a personal believer in upholding First Amendment 
protections, and I am sure the judicial system would be able to 
do that.
    What the current activity by the animal extremists does is 
create a fabric of low-level criminal behavior that falls below 
the enforcement interest and possibly the jurisdictional 
interest of the applicable existing law enforcement regimes, 
local, State and Federal.
    In my mind, we need to have an overarching regulatory 
regime by amending the criminal code at the Federal level that 
permits both the aggregating of the damages done by these low-
level activities and an effective mechanism for dealing with 
the coordination device that occurs through the use of the 
Internet to schedule and orchestrate these activities 
simultaneously in multiple jurisdictions.
    Our experience in the United States, Mr. Senator, has been 
simultaneous attacks in California, Washington, New Jersey, 
coordinated with the activities in the United Kingdom and the 
Netherlands. So it is essentially a global problem.
    Chairman Hatch. Mr. Blum, let me turn to you. We have heard 
from other witnesses who work in fields that are not 
particularly household names, but your company almost everybody 
knows. People know names such as KFC, Taco Bell and others. 
These are household words.
    You state in your testimony that extremists have threatened 
you, harassed others and distributed videotapes of chickens 
being slaughtered to children on Halloween. In your view, is 
current Federal and State law inadequate to provide you and 
those similarly situated with protection, and does it provide 
any punishment for those who carry out these outrageous acts?
    Mr. Blum. Well, Mr. Chairman, I would concur with Mr. Green 
and say that any one of these individual incidents could be 
considered a prank, and when you string them together, in the 
aggregate, that is where you have what we would consider 
corporate terrorism.
    Let me give you an example. Mr. Friedrich, who trespassed 
on our property on Christmas Eve to disrupt our holiday, was 
cited for arrest. He was brought to criminal prosecution and 
last week a jury convicted him. The fine, Mr. Chairman, was a 
$25 fine. Quite frankly, that is not going to be a deterrent to 
the PETA organization to prevent them from conducting the type 
of activity that they do.
    Besides that, there are 699,999 other members of the PETA 
organization who can continue on with this campaign of 
corporate terrorism. So I would like to see the criminal code 
expanded to include harassment, intimidation, invasion of 
privacy, stepping over the line of free speech. We believe in 
free speech, but when they have stepped over it, that is where 
we would like to see some protection.
    Chairman Hatch. Give us a little understanding of how these 
acts that you describe have affected your company. Have they 
affected the bottom line? Have they affected your ability to do 
business? Have they affected your ability to franchise and your 
ability to operate?
    Mr. Blum. First, they have been a disruption to our 
executives' time. But above and beyond that, they are trying to 
coerce us to force our suppliers to make changes which would 
not be in our shareholders' best interest. If we have to incur 
a $50 million charge by modifying the processing facilities, 
that is just simply not in our shareholders' best interest.
    Chairman Hatch. Even if you did modify them, they would 
still be critical, wouldn't they?
    Mr. Blum. They would. They would just raise the bar once 
again.
    Chairman Hatch. So in other words, you could never really 
satisfy them as long as you are selling dead chickens? I could 
say that in a little more delicate way.
    Mr. Blum. Well, that is what we do for a living and we are 
proud of being the world leader in fried chicken. They want a 
vegetarian world. We sell fried chicken. We will never see eye 
to eye. We respect that, and so long as they stay within the 
boundaries of the law and stay within their First Amendment 
rights, we are fine with that. When they step over the line, 
that is when we would like some protection.
    Chairman Hatch. Mr. Zola, I have been interested in your 
testimony because I am a great believer in medical research, 
and I also am a great believer that you have to do humane 
animal testing in order to accomplish this research. As 
everybody knows, a year or so ago I came out for embryonic stem 
cell research, which is also, many think, the future of medical 
research in this country and throughout the world.
    Are you aware of extremist targeting companies or other 
organizations that provide support services to Emory University 
that have been targeted because of their association with your 
facility, and if so, what kind of tactics were used?
    Mr. Zola. Well, first, Mr. Chairman, let me thank you for 
your support. I know you are a champion of medical research and 
of the kind of work that is involved there.
    Chairman Hatch. Thank you.
    Mr. Zola. The answer is, yes, we have. As I alluded to in 
my testimony, for example, we have contractors who are 
associated with the Yerkes Primate Research Center be the 
victims of one of these attacks.
    Now, just in line with my colleagues and the FBI testimony 
earlier, we could see this attack coming. We knew it was 
happening because it was broadcast on the Internet by the 
animal rights extremist Web pages. They even set up a time for 
when the supporters could download the piece of software they 
needed to generate this denial of service through their own 
computers. So we knew and could follow it.
    We were linked to the FBI in this, as well, but there was 
nothing they could do in this case because they don't have the 
possibilities of being able to interfere at that point in time 
because the rules and regulations aren't in place for being 
able to do that. So that is in many ways the kind of tragedy of 
this. We actually can see it unfolding and we know it is going 
to happen, and yet we can't do anything to counteract it.
    So we do have several examples of this, and in the 
testimony submitted from NABR several other examples are 
indicated as well. But in terms of Emory, and Yerkes in 
particular, many of the companies that have been associated 
with us have been the victims of this. Some of those companies 
then decide not to continue their relationship with us, and so 
that creates difficulties for us. We have to then go and find 
other contractors to be able to complete the work.
    There is a ripple that goes on and the ripple, Mr. 
Chairman, is even more important in the academic community 
itself; that is, students and post-doctoral fellows and other 
individuals, good scientists who would otherwise be doing 
research involving animals and important medical research, are 
becoming demoralized and they decide to move on to other areas 
that are less troublesome, less problematic.
    That really is the goal for the animal activists. The goal 
is not animal welfare. The goal is the abolition of the use of 
animals in research. There is no dividing line there. That is 
the goal, and that is the slow and incremental impact that they 
are having unless we intervene and do something.
    Chairman Hatch. Well, you have indicated in many ways that 
research is affected by these types of activities. Could you 
give us some other illustrations as to how research is 
affected? I am talking about medical and health care research, 
in particular, research for the benefit of mankind.
    Mr. Zola. Yes.
    Chairman Hatch. I notice that Mr. Green's organization, for 
instance, is trying to stamp out polio throughout the world and 
have been doing an excellent job. They are also working on some 
other very life-saving remedies and therapies and 
pharmaceuticals, if you will, that could help mankind.
    Tell us a little bit more about how you think this affects 
medical research.
    Mr. Zola. Mr. Chairman, thank you for that question. I 
would say there are at least two ways in which the animal 
extremists have had their impact. One is that they drain 
resources that would otherwise be directed toward life-saving 
biomedical research and instead are redirected toward 
development of regulations and a lot of administrative aspects 
that are put in place by legislation that is intended to be 
directed toward the welfare of animals, but which really does 
nothing more to enhance the welfare of animals.
    As you may know, there are in some cases more regulations 
associated with the use of animals in research than there are 
with the use of human subjects in research. The physical 
requirements and psychological requirements for housing animals 
and for maintaining animals is extraordinary in terms of its 
regulations. So the intent was to redirect as much of the 
resources both in terms of time and money as can be done by 
animal activists, and they have been very successful at that.
    The second is what I alluded to earlier, and that is the 
human resources. Those human resources are coming in some cases 
to conclusion that this is just not the field that they want to 
be in. So individuals who are quite capable and remarkable 
researchers are choosing a course of research that doesn't 
involve animals, just because it is easier and safer not to do 
that. People are feeling threatened, people are feeling 
demoralized. Graduate students and post-doctoral fellows are 
choosing a different direction in their careers.
    So much of the kinds of discovery that we know is critical 
and based around animal research is not going to get done in 
the timely way that it would otherwise. In my view, that 
translates simply to lives lost. The outcome of this really is 
the loss of lives. It means that the treatment or the cure or 
the intervention that would be here in 3 months is not going to 
be here in 3 months, and may never be here because of this 
drain of resources in terms of time and energy.
    Chairman Hatch. Well, you have brought that future 
biomedical scientists may diminish in significant numbers if 
they have to go through this kind of harassment.
    Mr. Zola. And it is ironic, if I might just add, Mr. 
Chairman, because we are on the verge now of a tremendous 
revolution in biomedical research with the aspect of genomics 
and stem cell research which is going to require the use of 
animals in a very strong and powerful way.
    Chairman Hatch. How widespread are these types of tactics 
in targeting others within the research community?
    Mr. Zola. It is quite pervasive. There is no colleague that 
I know of who hasn't had some impact in some way from the 
animal rights community either by being attacked directly or by 
having students or others affected.
    Chairman Hatch. Or even members of the family.
    Mr. Zola. And certainly members of the family, as we said. 
And you also made another point--I think it was you who made 
it--that they are not nearly as concerned about the use of 
human subjects as they are animal subjects. I mean, that seems 
kind of inconsistent.
    Mr. Zola. Sir, the goal, as I say, is not animal welfare; 
it is not human welfare. It is a different political goal in 
its own right of the abolition of the use of animals in 
research.
    Chairman Hatch. Well, I know very wealthy people who love 
animals and have given hundreds of thousands of dollars to 
PETA, for instance, because they believe that they are really 
trying to protect animals. Yet, without animal research, we 
would soon fall behind a lot of other countries and we would 
fall behind in these life-saving treatment therapies that are 
essential for mankind.
    Mr. Zola. I believe you are right. If I may make one last 
point, the research that we do helps not just humans; it helps 
animals. When you take your animal to the veterinarian, that 
treatment that the veterinarian has come out of animal 
research, so that animal research really is two-pronged, in a 
sense. It helps humans, but it also is important for animals 
themselves. So to be opposed to it doesn't make sense.
    Chairman Hatch. Well, I can see people who want to be 
vegetarians and don't want to eat Kentucky Fried, or now I 
understand roasted chicken.
    Mr. Blum. Right.
    Chairman Hatch. When that did that start, the middle of 
this month?
    Mr. Blum. Very good. You have been watching TV.
    Chairman Hatch. I have been wondering why you haven't had 
roasted chicken for some of us who can't eat fried chicken 
anymore.
    Mr. Blum. Well, come on in and try it.
    Chairman Hatch. I will.
    Mr. Blum. I will get you some chicken checks.
    Chairman Hatch. Okay, that will be great.
    Well, let me just say this. This is a serious hearing 
because there are few things as important for the welfare of 
society as scientific research for the benefit of mankind, and 
it can't be done without animal research, in my opinion. Some 
of it can, but some of the most significant parts cannot be 
done. Like I say, it is pathetic that people don't realize that 
and are not nearly as concerned about human research. I mean, 
it saves us the problem of using human subjects to try and find 
out what works and what doesn't work.
    So I just think that all three of your testimonies have 
been very helpful. There is no excuse for anybody intimidating 
children, intimidating research scientists and intimidating 
people in their homes. Your home should not be invaded. They 
should be protected, and I don't know of many societies where 
you won't have some sense of peace and tranquility in your own 
home.
    So I am very concerned about what I am hearing here today 
and we will have to see what we can do to resolve some of these 
problems. I am also concerned with the criminal activities that 
are going on, and if the Federal Government doesn't have the 
laws to resolve these problems, then we are going to have to 
try and find ways of giving them that help and that aid and 
those, to use your term, tools to be able to help them to be 
able to resolve these problems.
    Well, your testimony has been very important today and we 
will certainly take it completely under consideration.
    With that, the Center for Consumer Freedom has written a 
letter directed to me from Richard Berman, who is the executive 
director. Here is what he said: ``Dear Senator Hatch, thank you 
for holding a public hearing to investigate the disturbing 
trend of animal rights activists choosing criminal violence 
over peaceful protest. To add appropriate context to today's 
testimony, I would like to share some unusual findings that the 
Center for Consumer Freedom is in the process of making public. 
They highlight the extent to which supposedly `mainstream' 
animal rights charities, many of which enjoy Federal tax-exempt 
status, have an undeniable hand in encouraging and funding 
violent activity.''
    This backs up what you are saying.
    ``People for the Ethical Treatment of Animals, PETA, has 
donated over $150,000 to criminal activists, including the 
terrorist Earth Liberation Front''--that is ELF that has been 
mentioned here--``and individuals jailed for arson, burglary 
and attempted murder. When asked by eight different media 
outlets to explain the purpose of a $1,500 gift to ELF, PETA 
officers and spokespersons gave eight different and 
contradictory answers. Since 2000, rank-and-file PETA activists 
have been arrested over 80 times for crimes committed during 
PETA protests. Charges include felony obstruction of government 
property, criminal mischief, assaulting a cabinet official, 
felony vandalism, performing obscene acts in public, 
destruction of Federal property and burglary. Last week, PETA 
vegetarian campaign director Bruce Friedrich was convicted of 
criminal trespass in Kentucky. Friedrich has previously 
publicly advocated `blowing stuff up and smashing windows' in 
order to win `animal liberation.' As recently as last year, 
PETA's payroll included convicted Animal Liberation Front felon 
Gary Yourofsky, whom the group paid to lecture public school 
students about strict vegetarianism and animal rights. And 
PETA's websites, several of which target children, openly 
advocate vandalism and other illegal activity. Despite all of 
this, PETA maintains its 501(c)(3) Federal tax exemption. While 
the Humane Society of the United States, HSUS, is generally 
less confrontational than PETA, it has its own connection to 
organized violence. Until last year, when the Center for 
Consumer Freedom brought it to light, the HSUS was quietly 
funding the operation of an Internet service which distributed 
the Animal Liberation Front's official communiques claiming 
responsibility for criminal activities. HSUS and its $65 
million annual income are completely tax-exempt. The case of 
Daniel Andreas San Diego is a chilling story of animal rights 
terror involving two ten-pound shrapnel bombs detonated in 2003 
using the same materials found at the Oklahoma City blast site. 
The FBI's investigation uncovered substantial connections 
between this Federal fugitive and two above-ground groups--
California-based In Defense of Animals, IDA, and a violent 
group called SHAC. IDA is a tax-exempt charity. SHAC is in the 
process of applying for that status. In addition to its 
undeniable connection to the Chiron and Shaklee bombings, SHAC 
has been responsible for car bombings, death threats, physical 
assaults and countless other acts of intimidation. Substantial 
connections exist between PETA and SHAC, largely flowing 
through the inventively-named Physicians Committee for 
Responsible Medicine, or PCRM. PETA's quasi-medical front 
group, PCRM, has been publicly censured by the American Medical 
Association for its outrageous misrepresentations of medical 
science. To date, PETA has passed over $1.3 million to PCRM, 
all of it tax-exempt. PCRM president Dr. Neal Barnard is 
president of the PETA Foundation, the vehicle used to move much 
of this money. Working with the president of SHAC, Bernard has 
cosigned letters targeting biomedical research firms in the 
U.S. and abroad. Last year, at the `Animal Rights 2003' 
national conference, official PCRM spokesman Jerry Vlasak 
publicly advocated the murder of doctors who use animals in 
their research, saying `I don't think you would have to kill, 
assassinate too many. I think for 5 lives, 10 lives, 15 human 
lives, we could save a million, 2 million, 3 million non-human 
lives.' Vlasak reinforced this idea in April, telling a 
national cable network audience that violence is `a morally 
justifiable solution' for activists. A disturbing current of 
violence runs beneath the surface of `mainstream' animal rights 
groups in the United States. And some of these tax-exempt 
charities are provided `material support or resources' to 
groups and individuals whose activities fit the U.S. Criminal 
Code's definition of `domestic terrorism.'''
    That is a startling letter and if the facts in this letter 
are true, then there will have to be some action taken against 
these people who are committing these criminal activities. So I 
am going to caution our law enforcement people to check these 
all out. If they are true, there is no excuse for these people 
or these organizations having tax-free status in this country, 
because they certainly would not qualify under anybody's 
definition of tax-free 501(c)(3) organizations.
    So this hearing is a very important one. We will continue 
to follow up and, of course, we would appreciate any additional 
information anybody can send. We also would appreciate 
arguments on the other side, although I don't want to be 
inundated with propaganda. We would want articles of 
significance and honesty that would help us to understand this 
better.
    I appreciate the courage of you people and the testimony 
you have brought to us here today. I think what you have gone 
through is just absolutely wrong and we will see what we can do 
about it.
    With that, we will adjourn until further notice.
    [Whereupon, at 11:11 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
    [Additional material is being retained in the Committee 
files.]

[GRAPHIC] [TIFF OMITTED] T8179.001

[GRAPHIC] [TIFF OMITTED] T8179.002

[GRAPHIC] [TIFF OMITTED] T8179.003

[GRAPHIC] [TIFF OMITTED] T8179.004

[GRAPHIC] [TIFF OMITTED] T8179.005

[GRAPHIC] [TIFF OMITTED] T8179.006

[GRAPHIC] [TIFF OMITTED] T8179.007

[GRAPHIC] [TIFF OMITTED] T8179.025

[GRAPHIC] [TIFF OMITTED] T8179.026

[GRAPHIC] [TIFF OMITTED] T8179.027

[GRAPHIC] [TIFF OMITTED] T8179.028

[GRAPHIC] [TIFF OMITTED] T8179.029

[GRAPHIC] [TIFF OMITTED] T8179.030

[GRAPHIC] [TIFF OMITTED] T8179.031

[GRAPHIC] [TIFF OMITTED] T8179.032

[GRAPHIC] [TIFF OMITTED] T8179.033

[GRAPHIC] [TIFF OMITTED] T8179.034

[GRAPHIC] [TIFF OMITTED] T8179.035

[GRAPHIC] [TIFF OMITTED] T8179.036

[GRAPHIC] [TIFF OMITTED] T8179.037

[GRAPHIC] [TIFF OMITTED] T8179.038

[GRAPHIC] [TIFF OMITTED] T8179.039

[GRAPHIC] [TIFF OMITTED] T8179.040

[GRAPHIC] [TIFF OMITTED] T8179.041

[GRAPHIC] [TIFF OMITTED] T8179.042

[GRAPHIC] [TIFF OMITTED] T8179.043

[GRAPHIC] [TIFF OMITTED] T8179.044

[GRAPHIC] [TIFF OMITTED] T8179.045

[GRAPHIC] [TIFF OMITTED] T8179.046

[GRAPHIC] [TIFF OMITTED] T8179.047

[GRAPHIC] [TIFF OMITTED] T8179.048

[GRAPHIC] [TIFF OMITTED] T8179.049

[GRAPHIC] [TIFF OMITTED] T8179.050

[GRAPHIC] [TIFF OMITTED] T8179.051

[GRAPHIC] [TIFF OMITTED] T8179.052

[GRAPHIC] [TIFF OMITTED] T8179.053

[GRAPHIC] [TIFF OMITTED] T8179.054

[GRAPHIC] [TIFF OMITTED] T8179.055

[GRAPHIC] [TIFF OMITTED] T8179.056

[GRAPHIC] [TIFF OMITTED] T8179.057

[GRAPHIC] [TIFF OMITTED] T8179.058

[GRAPHIC] [TIFF OMITTED] T8179.059

[GRAPHIC] [TIFF OMITTED] T8179.060

[GRAPHIC] [TIFF OMITTED] T8179.061

[GRAPHIC] [TIFF OMITTED] T8179.062

[GRAPHIC] [TIFF OMITTED] T8179.063

[GRAPHIC] [TIFF OMITTED] T8179.064

[GRAPHIC] [TIFF OMITTED] T8179.065

[GRAPHIC] [TIFF OMITTED] T8179.066

[GRAPHIC] [TIFF OMITTED] T8179.067

[GRAPHIC] [TIFF OMITTED] T8179.068

[GRAPHIC] [TIFF OMITTED] T8179.069

[GRAPHIC] [TIFF OMITTED] T8179.070

[GRAPHIC] [TIFF OMITTED] T8179.071

[GRAPHIC] [TIFF OMITTED] T8179.072

[GRAPHIC] [TIFF OMITTED] T8179.073

[GRAPHIC] [TIFF OMITTED] T8179.074

[GRAPHIC] [TIFF OMITTED] T8179.075

[GRAPHIC] [TIFF OMITTED] T8179.076

[GRAPHIC] [TIFF OMITTED] T8179.077

[GRAPHIC] [TIFF OMITTED] T8179.078

[GRAPHIC] [TIFF OMITTED] T8179.079

[GRAPHIC] [TIFF OMITTED] T8179.080

[GRAPHIC] [TIFF OMITTED] T8179.081

[GRAPHIC] [TIFF OMITTED] T8179.082

[GRAPHIC] [TIFF OMITTED] T8179.083

[GRAPHIC] [TIFF OMITTED] T8179.084

[GRAPHIC] [TIFF OMITTED] T8179.085

[GRAPHIC] [TIFF OMITTED] T8179.086

[GRAPHIC] [TIFF OMITTED] T8179.087

[GRAPHIC] [TIFF OMITTED] T8179.088

[GRAPHIC] [TIFF OMITTED] T8179.089

[GRAPHIC] [TIFF OMITTED] T8179.090

[GRAPHIC] [TIFF OMITTED] T8179.100

[GRAPHIC] [TIFF OMITTED] T8179.101

[GRAPHIC] [TIFF OMITTED] T8179.102

[GRAPHIC] [TIFF OMITTED] T8179.103

[GRAPHIC] [TIFF OMITTED] T8179.104

[GRAPHIC] [TIFF OMITTED] T8179.105

[GRAPHIC] [TIFF OMITTED] T8179.106

[GRAPHIC] [TIFF OMITTED] T8179.107

[GRAPHIC] [TIFF OMITTED] T8179.108

[GRAPHIC] [TIFF OMITTED] T8179.109

[GRAPHIC] [TIFF OMITTED] T8179.110

[GRAPHIC] [TIFF OMITTED] T8179.111

[GRAPHIC] [TIFF OMITTED] T8179.112

[GRAPHIC] [TIFF OMITTED] T8179.113

[GRAPHIC] [TIFF OMITTED] T8179.114

[GRAPHIC] [TIFF OMITTED] T8179.115

[GRAPHIC] [TIFF OMITTED] T8179.116

[GRAPHIC] [TIFF OMITTED] T8179.117

[GRAPHIC] [TIFF OMITTED] T8179.119

[GRAPHIC] [TIFF OMITTED] T8179.120

[GRAPHIC] [TIFF OMITTED] T8179.121

[GRAPHIC] [TIFF OMITTED] T8179.122

[GRAPHIC] [TIFF OMITTED] T8179.123

[GRAPHIC] [TIFF OMITTED] T8179.124

[GRAPHIC] [TIFF OMITTED] T8179.125

[GRAPHIC] [TIFF OMITTED] T8179.126

[GRAPHIC] [TIFF OMITTED] T8179.127

[GRAPHIC] [TIFF OMITTED] T8179.128

[GRAPHIC] [TIFF OMITTED] T8179.129

[GRAPHIC] [TIFF OMITTED] T8179.130

[GRAPHIC] [TIFF OMITTED] T8179.131

[GRAPHIC] [TIFF OMITTED] T8179.132

[GRAPHIC] [TIFF OMITTED] T8179.133

[GRAPHIC] [TIFF OMITTED] T8179.134

[GRAPHIC] [TIFF OMITTED] T8179.135

[GRAPHIC] [TIFF OMITTED] T8179.136

[GRAPHIC] [TIFF OMITTED] T8179.137

[GRAPHIC] [TIFF OMITTED] T8179.138

[GRAPHIC] [TIFF OMITTED] T8179.139

[GRAPHIC] [TIFF OMITTED] T8179.140

[GRAPHIC] [TIFF OMITTED] T8179.141

[GRAPHIC] [TIFF OMITTED] T8179.142

[GRAPHIC] [TIFF OMITTED] T8179.143

[GRAPHIC] [TIFF OMITTED] T8179.144

[GRAPHIC] [TIFF OMITTED] T8179.145

[GRAPHIC] [TIFF OMITTED] T8179.146

[GRAPHIC] [TIFF OMITTED] T8179.147

[GRAPHIC] [TIFF OMITTED] T8179.148

[GRAPHIC] [TIFF OMITTED] T8179.149

[GRAPHIC] [TIFF OMITTED] T8179.150

[GRAPHIC] [TIFF OMITTED] T8179.151

[GRAPHIC] [TIFF OMITTED] T8179.153

[GRAPHIC] [TIFF OMITTED] T8179.154

[GRAPHIC] [TIFF OMITTED] T8179.155

[GRAPHIC] [TIFF OMITTED] T8179.156

[GRAPHIC] [TIFF OMITTED] T8179.157

[GRAPHIC] [TIFF OMITTED] T8179.158

                                 <all>

</pre></body></html>
